No.
IN THE SUPREME COURT OF THE UNITED STATES
Brain Dunkley,
Petitioner,

v.

Shawn Phillips, Warden,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE SIXTH CIRCUIT COURT OF APPEALS
APPENDIX FOR
PETITION FOR WRIT OF CERTIORARI

Submitted by,
Bran Dunkley, 487273
BCCX, Site 2, Unit 5
1045 Horsehead Rd.
Pikeville, TN. 37367

TABLE OF CONTENTS

1.
2.
3.
4.

Brain Dubkley v. Hutchinson, No. 3:17-cv-01508, 2020
WL 5797982 (M.D. TN. 09/29/2020).........................................

1

Brian Dunkley v. Phillips, No. 20-6221 (6th Cir.
04/22/2021)..............................................................................

21

Brain Dunkley v. Phillips, No 20-6221 (6th Cir.
- Motion for Reconsideration ■v
§6/01/2021) •

27

Brian Dunkley v. Phillips, No. 20-6221 (6th Cir.
- Motion for Reconsideration En Banc 06/17/2021.

28

i.

Dunkley v. Hutchison | WestlawNext

6/10/2021

’ WESTLAW
Dunkley v. Hutchison
United States District Court. M.D. Tennessee, Nashviile Division, ! September 29, 2020 , Slip Copy i 2020 WL 5797982 (Approx. 21 psges)

2020 WL 5797982
Only the Westlaw citation is currently available.
United States District Court, M.D. Tennessee, Nashville Division.

Brian DUNKLEY, Petitioner,
v.
Kenneth HUTCHISON, Warden, Respondent.
Case No. 3:17-^-01508
Filed 09/29/2020
Attorneys and Law Firms
Brian Dunkley, Pikeville, TN, pro se.
Richard Davison Douglas, Tennessee Attorney General's Office, Nashville, TN, for
Respondent.
MEMORANDUM
Aleta A. Trauger, United States District Judge
’1 Brian Dunkley is serving a 25-year prison sentence based on his conviction by a
Davidson County, Tennessee jury of conspiracy to commit first-degree murder. On
November 30, 2017, he filed his pro se petition for the writ of habeas corpus pursuant to 28
U.S.C. § 2254. (Doc. No. 1.) The respondent filed an answer to the petition (Doc. No. 13)
and the state court record (Doc. No. 12), and the petitioner filed a reply to the respondent's
answer (Doc. No. 16). Over the petitioner's objection, the respondent was granted leave to
file a sur-reply. (Doc. No. 18.) The petitioner thereafter filed a brief response to the surreply. (Doc. No. 22.)
This matter is ripe for the court's review, and the court has jurisdiction. The respondent
does not dispute that the petition is timely, that this is the petitioner's first Section 2254
petition related to this conviction, and that the claims of the petition have been exhausted.
(Doc. No. 13 at 1-2.) Having reviewed the petitioner's arguments and the underlying
record, the court finds that an evidentiary hearing is not required. As explained below, the
petitioner is not entitled to relief under Section 2254, and his petition will therefore be
denied.
I. PROCEDURAL HISTORY
In 2011, the petitioner was tried on charges including conspiracy to commit the first-degree
murder of his ex-wife, attempted first-degree murder, and attempted aggravated battery. He
was convicted of conspiracy to commit first-degree murder and acquitted of attempted firstdegree murder and attempted aggravated battery. (Doc. No. 12-3 at 65-67.) He was
sentenced to 25 years in the Tennessee Department of Correction with parole eligibility
after 30% of his sentence is served. (Id. at 65.) His subsequent motion for a new trial was
- denied by the trial court. (Id. at 94- 101.)
On direct appeal, the Tennessee Court of Criminal Appeals (TCCA) affirmed the petitioner's
conviction and sentence. State v. Dunkley, No. M2012-00548-CCA-R3-CD, 2014 WL
2902257 (Tenn. Crim. App. June 25, 2014), The Tennessee Supreme Court denied
discretionary review on November 20, 2014. (Doc. No. 12-27.)
The petitioner, through counsel, filed a petition for post-conviction relief on September 14,
2015. (Doc. No. 12-28 at 51-90.) Following an evidentiary hearing, the post-conviction trial
court denied relief. (Doc. No. 12-30 at 68-79.)
On June 5, 2017, the TCCA affirmed the denial of post-conviction relief. Dunkley v. State,
No. M2016-00961-CCA-R3-PC, 2017 WL 2859008 (Tenn. Crim. App. June 5, 2017). The
petitioner filed for permission to appeal to the Tennessee Supreme Court, which was
denied on November 16, 2017. (Doc. No. 12-38.) Shortly thereafter, the petitioner filed his
pro se petition under Section 2254 in this court.
II. STATEMENT OF FACTS
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult...

1/20

6/10/2021

Dunkley v. Hutchison | WestlawNext
A. Evidence at Trial
The petitioner was tried on charges stemming from his role in a conspiracy to kill Kristi
Dunkley, who was his wife at the time of the conspiracy. The other conspirators were
Stephanie Frame, who met the petitioner in 2005 and entered into a sexual relationship
with him in 2006, while„he_was still married to the victim; William Miller, Frame's second
cousin who knew the petitioner and had spent time with him at holiday gatherings in late
2007; and Donte Chestnut, an acquaintance of Frame's. Miller, Chestnut, and the petitioner
were tried together, convicted, and sentenced to prison.

a.

*2 Kristi Dunkley testified that she married the petitioner in 1995 and that they had
endured several periods of separation before moving back in together in April 2008. State
v. Dunkley, 2014 WL 2902257, at *12. They separated finally in September 2008, and
"[s]he stated that their separation was ‘ugly,’ and she left their marital home, taking her two
children with her, one of wh[om] was also Defendant Dunkley's daughter.” Id. She testified
that “they had since divorced and she had reacquired her maiden name, Alderson. Ms.
Dunkley confirmed that her uncle, Tim Alderson, was Ms. Frame's stepfather.” Id. She had
been aware of the petitioner's affair with Frame, which contributed to the divorce. Id.
On July 19, 2006, the Dunkleys had taken out a $50,000 life insurance policy on the
victim, listing the petitioner as the beneficiary. This “permanent life insurance policy" was in
force at the same time as a twenty-year term life insurance policy in the amount of
$250,000, which also insured the victim's life and listed the petitioner as beneficiary. These
policies listed the petitioner as the owner and, therefore, did not allow the victim to control
the beneficiary designation. Id. at *2-3.
After spending time together during Thanksgiving and Christmas of 2007 at Frame's family
gatherings, Miller and the petitioner began to discuss killing the victim. Frame's trial
testimony1 established the following sequence of events, as summarized by the TCCA:
[l]in January 2008, she took Defendant Dunkley to Defendant Miller's mother's house,
where the two men met outside, while Ms. Frame went inside the house. She stated that,
after his discussion with Defendant Miller, Defendant Dunkley told her that Defendant
Miller “was going to be the one to take [Ms. Dunkley] out[ ]’’ and that he had given to
Defendant Miller a picture of Ms. Dunkley, with her work address, home address, and
information about two vehicles that Ms. Dunkley drove. Ms. Frame stated that, in early
2008, Defendant Dunkley showed Ms. Frame tljat same photograph of Ms. Dunkley
and the information attached to it.
Ms. Frame testified that, later in January 2008, Defendant Dunkley said to her, “To show
you how serious I am [about killing Ms. Dunkley], I gave [Defendant Miller] one of my
guns." Ms. Frame recalled that Defendant Dunkley then showed her an empty weapon
holster in his bedside drawer. Ms. Frame said she was "aware" of the communication
between the two men at this time but that she was getting information about their
communication from Defendant Dunkley. Defendant Dunkley told Ms. Frame that
Defendant Miller was “watching” Ms. Dunkley to get information about “what's going on
in her life.”
Ms. Frame testified that Ms. Dunkley “moved back in with [Defendant Dunkley] in late
March, beginning of April of 2008 so actually [Defendant Miller] had come to a halt.” Ms.
Frame stated that in the summer of 2008, Defendant Dunkley told her that he had asked
Defendant Miller why he had stopped watching Ms. Dunkley. According to Defendant
Dunkley, Defendant Miller responded that he had stopped because Ms. Dunkley had
moved back in with Defendant Dunkley, and Defendant Dunkley responded, “you don't
stop until I tell you to stop.”
Ms. Frame testified that she invited Defendant Miller over for dinner in August 2008. She
told Defendant Miller that she knew what he and Defendant Dunkley “were up to[,]" and
Defendant Miller responded that he was “skeptical of doing the job” because he was not
sure Defendant Dunkley would pay him. Ms. Frame assured him that Defendant
Dunkley was “trustworthy” but that Defendant Miller would not get paid until “it was done
and ... the insurance [was] cashed out....” Defendant Miller wanted to know how long
payment would take, and Ms. Frame asked Defendant Dunkley, who told her it would
take no longer than thirty days. Ms. Frame testified that she had a conversation with
Defendant Miller about the gun Defendant Dunkley had given him. She stated that this
was “during the times we [were] actually outside [Ms. Dunkley's] work building watching
[her].” Defendant Miller told her that the gun given to him by Defendant Dunkley had
been “apprehended by the police officers during an arrest in March 2008.” Ms. Frame
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult...

2/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

3-

stated that, at some point in August 2008, she gave Defendant Miller her daughter's
cellular telephone because “his cellular service was disconnected.” Ms. Frame testified
that during that time, she was using a T-Mobile "Shadow'' telephone, which contained the
SIM card she eventually transferred to the G-1 telephone [she purchased in January
2009],
____
*3 Ms. Frame was asked to explain text messages contained in the report admitted into
evidence that were sent between [her] and Defendant Dunkley. The jury was furnished
with a copy of the report while Ms. Frame testified about their content. She testified that
on August 20, 2008, she and Defendant Dunkley exchanged text messages in regards
to giving Defendant Miller directions to Ms. Dunkley's home and work. She stated that
on August 22, 2008, she received text messages from Defendant Dunkley “giving [Ms.
Dunkley's] schedule!,]” including when the doors to her work building would be locked,
where she parked her car, where security cameras were located, and what time Ms.
Dunkley went in to work. Defendant Dunkley also sent text messages describing the
interior of Ms. Dunkley's work building.
Referencing the report, Ms. Frame stated that on September 19, 2008, Defendant
Dunkley sent her multiple text messages explaining Ms. Dunkley's schedule and where
she parked her car at work. She stated that Defendant Dunkley sent a text message
from inside Ms. Dunkley's work building, where he was getting his hair done, indicating
that he would give information about where Ms. Dunkley's car was parked and how full
the parking lot was. Ms. Frame testified that she and Defendant Miller “were walking
throughout the area” where Ms. Dunkley worked and that they spotted a security
camera on a building. Ms. Frame sent a text message with this information to Defendant
Dunkley. Ms. Frame explained that she and the two men were “interested” in where Ms.
Dunkley parked her car “[s]o that it would be an easy and simple drive for [Defendant
Miller to kill Ms. Dunkley] without being noticed.”
Ms. Frame testified that on September 20, 2008, Defendant Dunkley sent her a text
message that said, “It needs to happen. Don't know how much longer I can deal.” Ms.
Frame explained that “it” meant Defendant Miller killing Ms. Dunkley. Ms. Frame testified
that Defendant Dunkley sent more text messages detailing Ms. Dunkley's whereabouts
on September 21, and gave more information about Ms. Dunkley's work building and
which doors were unlocked. Defendant Dunkley sent Ms. Frame another text message
on September 21 saying, “This bitch is crazy. [Defendant Miller killing Ms. Dunkley]
needs to happen ASAP. Is [Defendant Miller] for real.” Ms. Frame testified that she had
the keys to Ms. Dunkley's car and that she asked Defendant Dunkley if Defendant
Miller could “wait inside [Ms. Dunkley's] car and get her that way[,f to which Defendant
Dunkley replied, “I don't think [Defendant Miller will] be able to wait in the ride. Maybe
out on the side.” On September 24, 2008, Defendant Dunkley sent more text messages
updating the "status” of Ms. Dunkley's work schedule, and saying, “Follow her. She told
me she was working.”
Id. at *5-7.
Frame testified that the petitioner sent her additional text messages describing the urgent
need to have the victim killed. She further testified that her sexual relationship with the
petitioner was ongoing at this time and that “she wanted to kill Ms. Dunkley because
Defendant Dunkley 'said that that was the only way we could be happy and together.' ” Id.
at *11. Frame testified that she provided another gun to Miller in January 2009 but that
Miller was concerned about the arrangement because he was to receive $50,000, if he
killed the victim, but “was not getting paid any money up front.” Id. at *7. Frame offered
Miller money up front, and the petitioner stated that he would provide money up front or let
Miller hold the title to the petitioner's vehicle, a Hummer. Once Miller was enticed to resume
the conspiracy, the petitioner, Frame, and Miller conferred about a time to kill the victim
when her children would not be present in the apartment with her. Id. at *8.
*4 Early on the morning of February 8, 2009, Frame and Miller went to the victim's
apartment, where Miller attempted to force the front door open with a sledgehammer.
When the door did not open after being hit once with the sledgehammer, Frame and Miller
fled. They decided to try again the next day, but at a time when they could follow the victim
and her boyfriend into the apartment “so there won't be any mistakes.” Id. at 8-9. Frame
testified to her surveillance efforts and communications with the petitioner over the next two
days, as follows:

https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult...

3/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

H.

Ms. Frame testified that, on February 9, 2009, she and Defendant Dunkley
discussed via text message that having his daughter with him at the time of
the murder would be a "good alibi” for him. Ms. Frame testified that on
February 10, she and Defendant Miller followed Ms. Dunkley while she
took her oldest daughter to school and her younger daughter to Ms.
Dunkley's mother's house. Ms. Frame stated that, in a rental car, she and
Defendant Miller continued to follow Ms. Dunkley throughout the day. After
following Ms. Dunkley, Ms. Frame sent text messages to Defendant
Dunkley with “all of that information" about where they had followed Ms.
Dunkley. Ms. Frame explained that she rented a vehicle because she
thought Ms. Dunkley might know what her vehicle looked like. Ms. Frame
stated that she communicated this as well to Defendant Dunkley. The
receipt from the car rental was admitted into evidence.

Id. at *9.
On February 17, 2009, the petitioner and Frame exchanged text messages in which the
petitioner, “referring to his divorce proceedings with Ms. Dunkley, stated that he was 'going
to lose everything' to Ms. Dunkley," to which Frame replied that “she had told Defendant
Miller that ‘it [had] to happen before Friday.’ ” Id. When Miller could not adhere to this
schedule, Frame contacted Chestnut, one of her clients, and asked him “if he knew
someone that would want to make $10,000." Id. at 9-10. Frame testified that “she made it
‘very dear’ to Mr. Chestnut that she wanted to pay someone to do a killing.” Id. at 11.
Chestnut contacted his brother-in-law, Herman Marshall, who agreed to do the killing but
then contacted police, who subsequently recorded a telephone call between Marshall and
Frame in which Frame confirmed the plan to kill the victim and arranged to meet Marshall
in a hospital parking lot. At that meeting, under police surveillance, Frame provided
Marshall with a handgun, a body suit, a hairnet, a can of pepper spray, and a picture of the
victim. She then drove Marshall to the victim's apartment complex to show him its location
and gave him $200. Immediately after this meeting, Marshall met with the police and gave
them the $200. Id. at 2.
Frame was then taken into custody and interviewed at the police station, where Detective
Tarkington “testified that initially she did not provide truthful information about the murderfor-hire scheme or her involvement." Id. at 4. However,

Detective Tarkington stated that, while in jail, Ms. Frame placed or received
several telephone calls that were recorded. He testified that he monitored
the telephone calls and that Ms. Frame mentioned Defendant Dunkley's
and Defendant Miller's names throughout those calls. He stated that she
mentioned Defendant Miller as being part of the scheme, and she stated
that he had received $700 to take part in the scheme. Detective Tarkington
listened to Ms. Frame ask the person on the other end of the call to “threeway call" Defendant Miller, and, once Defendant Miller was on the line, Ms.
Frame asked him to return the money he had been paid. It was also during
that call that Detective Tarkington learned of the existence of the Shadow
telephone owned by Ms. Frame. After securing the Shadow phone from Ms.
Frame's mother, Detective Tarkington stated that he turned the Shadow and
G-1 telephones over to Detective Weaver for the extraction of reports from
the telephones.

*5 Id. Both Detective Tarkington and Lieutenant Patrick Taylor were involved with
monitoring the meeting between Frame and Marshall in the hospital parking lot on March 2,
2009. Lt. Taylor testified “that he observed the interaction between Ms. Frame and Mr.
Marshall, and he witnessed Ms. Frame's green SUV pull into the parking lot, as well as a
black Hummer. Lieutenant Taylor testified that he later learned that Defendant Dunkley
owned a Hummer." Id. at *5. Kevin Sherrell, a friend of the Dunkleys who later became
romantically involved with the victim, confirmed the petitioner's ownership of a black
Hummer that had been an issue during the Dunkleys' divorce proceedings. Id. at *12, 13.
B. Post-Conviction Testimony
The following recitation of the testimony received at the petitioner's post-conviction
evidentiary hearing (Doc. No. 12-31) is taken from the TCCA's opinion affirming the denial
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult...

4/20

Dunkley v. Hutchison | WestlawNext

6/10/2021
of post-conviction relief (Doc. No. 12-35):

5.

At the post-conviction hearing, trial counsel testified that she was retained by the
Petitioner in August 2010 and that trial was set for November 2010. She reviewed all of
the discovery, including the text messages, and she met with the Petitioner several
times. Trial counsel testified that she discussed the text messages with the Petitioner
multiple times and that the Petitioner was aware of the content of the text messages.
Trial counsel testified that she discussed the weight of the evidence, including the text
messages, with the Petitioner but did not recall ever telling him that the State had a
strong case against him. Trial counsel described the text messages as “damning.''
According to trial counsel, the Petitioner, who had previously worked for the State in the
field of information technology and who was educated and intelligent, wanted to be
exonerated and had always wanted to go to trial. Trial counsel discussed the Petitioner's
exposure with him but did not recall ever recommending that he pursue a plea
agreement. Neither did she ever express concern to his mother or to Joslynn WilliamsDunkley, his girlfriend [at the time of trial whom he later married], regarding the strength
of the State's case, because she did not want to affect their testimony in the event she
chose to call them to testify.
According to trial counsel's testimony, on the morning of trial, she asked the Assistant
District Attorney General about any offers to settle the case. Trial counsel stated that the
prosecutor responded with an offer to recommend a sentence that was either at the
bottom of the range for a Class A felony or the top of the range for a Class B felony in
exchange for a guilty plea. Trial counsel spoke to the Petitioner about the offer for
approximately five minutes. During this time, she did not discuss the strength of the
State's case or the Petitioner's potential range of punishment. While trial counsel
believed that entering a plea would be in the Petitioner’s best interest, she did not share
her opinion with him, make any recommendation regarding a plea, or ask for additional
time to consider the offer in order to have a thorough discussion with the Petitioner. The
Petitioner, with no guidance from trial counsel, responded he would consider serving a
six-year sentence. The State promptly rejected this offer, and trial commenced.
According to trial counsel, Ms. Frame had two telephones with inculpatory evidence. Trial
counsel tried to suppress the older text messages on the "shadow" phone based on
Tennessee Rule of Evidence 404 and moved to dismiss the indictment and suppress
evidence from the G-1 phone based [on] the State's loss or destruction of evidence,
pursuant to State v. Ferguson, 2 S. W. 3d 912 (Tenn. 1999). Trial counsel admitted that
she had misunderstood the burden of proof regarding the Ferguson issue and did not
present any evidence at the motions hearing. Trial counsel's motions were denied, and
she re-filed the motions closer to trial. In preparation for the second hearing on the
motion to suppress and motion to dismiss, trial counsel issued a subpoena to Ms.
Frame's mother, directing Ms. Frame's mother to bring the G-1 telephone with her. The
telephone was made available to the defense on the morning of the hearing. Trial
counsel then struck the motions. At the post-conviction hearing, she agreed that the
telephone had been in use and was not preserved by law enforcement. Trial counsel
testified that she had been concerned regarding the destruction of voicemails and
pictures but had never considered investigating the applications present on the
telephone. She agreed that the Petitioner never specified what information on the
telephone could have been helpful to him and that it was “pure speculation” and
“essentially a fishing expedition" to assert that the telephone contained exculpatory
information.
*6 Trial counsel did not challenge the warrants for records related to Ms. Frame's two
telephones or the judicial subpoena for the records related to the Petitioner's telephones.
She agreed with the prosecution that the Petitioner would not have had standing to
contest the warrants for Ms. Frame's telephones and that the State could have gotten
new subpoenas if the subpoenas for the Petitioner's telephones had been found not to
comply with [the] statute. Ms. Frame's “shadow" telephone contained text messages
which included pictures of the Petitioner sent from a number corresponding to one of his
telephones, and trial counsel agreed that it would have been “extremely difficult" to
challenge the premise that he was the one sending photos of himself.
Trial counsel's strategy was to shift the blame to Ms. Frame and to advance a theory that
she had fabricated the text messages as a result of a delusional obsession with the
Petitioner. Trial counsel testified that she could not recall whether she had known that the
prosecution would introduce evidence that a Hummer was circling the parking lot of the
hospital while Ms. Frame met with Mr. Marshall. She recalled that the Petitioner wanted
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11 eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1 %2Fresult...

5/20

6/10/2021

Dunkley v. Hutchison | WestlawNext
her to question his girlfriend, Ms. Williams-Dunkley, regarding the allegation. Trial
counsel chose not to call Ms. Williams-Dunkley because the State possessed evidence
calling Ms. Williams-Dunkley's credibility into question, including a civil judgment against
her related to the sale of the Petitioner’s Hummer, a finding from the divorce court that
she had benefited from the.Petitioner's liquidation of his 401K, and recorded calls to the
jail in which she spoke with the Petitioner regarding keeping the Hummer. Trial counsel
acknowledged that the records from the Petitioner's cell phone indicated that he was in
Goodlettsville and not at Skyline hospital around the time of the meeting between Ms.
Frame and Mr. Marshall.

6.

Over the Petitioner's objection, Pamela Anderson, the Assistant District Attorney General
who was representing the State at the post-conviction hearing, elected to testify. Ms.
Anderson, who had prosecuted the Petitioner, stated that the prosecution had a strong
case. Ms. Anderson testified that the State was entirely unwilling to allow any of the
defendants on trial that day—Mr. Chestnut, Mr. Miller, or the Petitioner—to be severed
from the other defendants, and she added that the State was not willing to entertain a
plea to a reduced charge. We note that the Petitioner was charged with and acquitted of
attempted aggravated burglary and attempted first degree murder. According to Ms.
Anderson, the State never extended an offer to the Petitioner, and any plea negotiations
would have been contingent on both the victim's approval and the entry of guilty pleas to
the indicted offenses from all the other defendants on trial. Ms. Anderson agreed that the
State “would have likely settled it" if the victim had agreed to the plea and if the other co­
defendants had decided to plead guilty. Ms. Anderson stated that counsel for a co­
defendant opened plea discussions on the day of trial. Ms. Anderson had told trial
counsel that if the Petitioner were to offer to plead guilty to the indicted offense, the State
“might be willing” to agree to the minimum sentence in the range. Ms. Anderson
confirmed that trial counsel returned with a six-year offer, which the State rejected out of
hand. She agreed with trial counsel that the trial judge in the case generally approved
plea agreements reached by the parties.
[fn] Ms. Anderson testified that the State would not have reduced the charges from the
“indicted offense" and that if the Petitioner had offered to plead guilty to the “indicted
offense,” the State might have considered a fifteen-year sentence. She recalled that
the Petitioner might have also been charged with attempted first degree murder and
stated “we never got to any discussions about that.” She clarified that the State would
have considered a fifteen-year sentence in exchange for a guilty plea to a Class A
felony.
*7 Detective Norris Tarkington testified that Ms. Frame was arrested around 8:30 p.m. on
March 2, 2009, and that he ultimately seized both the G-1 telephone and the “shadow”
phone which she had used during the relevant period. One of the telephones was in Ms.
Frame's possession, and he learned of the other while monitoring Ms. Frame's telephone
calls from jail. The second telephone was in the possession of Ms. Frame's mother, and
after law enforcement retrieved information from the telephones, he returned one of them
to Ms. Frame's mother.
Detective Tarkington testified that he could not find video surveillance of the Hummer in
the parking lot because the cameras were too far away. He testified that Skyline hospital
is in Nashville. Detective Tarkington testified regarding some of the communications
between the Petitioner and Ms. Williams-Dunkley that would have affected her
credibility. Ms. Williams-Dunkley had written the Petitioner, "I have got your back, baby,”
and told him, “I'm not blinded by love, I'm engulfed in it." Ms. Williams-Dunkley also
wrote, “I want to harm someone like I've been harmed. I want to reach deep into
someone's chest and pull out their pulsating heart from its rotting cavity," and she
assured the Petitioner, “Revenge will be mine.” She also referenced in a letter a plot that
she and the Petitioner had concocted during a jail call, in which they planned to fabricate
charges against the victim’s uncle so that he would be arrested and the Petitioner could
beat him up in jail.
The Petitioner, who had owned a consulting company and performed information
technology work for the State of Tennessee prior to his conviction, hired trial counsel
because his previous counsel, who represented him for four or five months, had not
responded to his communications. The Petitioner testified that trial counsel never
discussed his exposure or the State's theory of the evidence, including evidence that he
stood to profit through the victim's death due to an insurance policy. The Petitioner had a
prior criminal charge to which he pled guilty and for which he obtained diversion. He also
had experience in divorce court. The Petitioner was aware that “there would be text
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FuHText.html?navigationPath=Search%2Fv1%2Fresult...

6/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

messages,” but trial counsel never reviewed the text messages line-by-line or discussed
them. Trial counsel gave Petitioner the impression that the State had only screen shots
of the text messages, that some of these did not have an identifying telephone number
and were “outside the scope of the charges,” and that the messages “wouldn't be
- anything to worry about” because they would not be admissible. Trial counsel also told
him that the defense could discredit Ms. Frame's testimony. The Petitioner had the
impression that trial counsel had “everything under control," and he had no concern that
he would be found guilty. He did not see all of the text messages until trial, although his
first attorney had given him two sheets of paper with some of the text messages on
them. The Petitioner agreed that he was aware of the text messages because he had
sent them. He also acknowledged that he actively deleted text messages off his own
telephone and that the "majority" of the text messages introduced at trial were ones he '
had sent and received.

7

On the morning of trial, trial counsel told him “something about” fifteen years, but he
thought that the fifteen-year sentence was part of Ms. Frame's plea agreement. He did
not think that the State had offered him a plea agreement, but he told trial counsel that
he would agree to serve six years. The Petitioner testified that, if he had understood the
State's case, he would have taken a plea offer of fifteen years. Trial counsel never
suggested to him that he should plead guilty.
*8 The Petitioner testified that the police failed to preserve the G-1 telephone. According
to the Petitioner, the telephone could have contained an application giving the user the
capability to modify text messages, and evidence of such an application on the G-1
telephone could have discredited Ms. Frame's testimony.
The Petitioner testified that he lived in Goodlettsville with Ms. Williams-Dunkley between
January and April 2009 and that his home in Goodlettsville was located approximately
ten miles from Skyline hospital. He was surprised at the testimony implying he was at the
hospital during the meeting between Ms. Frame and Mr. Marshall, and he told trial
counsel that he had been at home and that his vehicle had OnStar. He also told her that
Ms. Williams-Dunkley could confirm that he had been at home and could confirm that he
was not driving his Hummer at the time because she was using it. He acknowledged that
Ms. Williams-Dunkley had written the statements read into the record by Detective
Tarkington. The Petitioner acknowledged that he had been convicted of aggravated
perjury for misrepresenting the fate of the Hummer in divorce court.
Dunkley v. State, 2017 WL 2859008, at -*2-5.
III. CLAIMS PRESENTED FOR REVIEW
The petitioner's pro se petition in this court asserts the following claims:
(1) Multiple trial court errors violated his right to due process and a fair trial:
(a) The trial court erroneously granted the state's motion regarding the admission of
text messages relating to the offense;
(b) The trial court erroneously denied the motion for new trial when the state failed to
prove beyond a reasonable doubt that the petitioner was guilty of conspiracy to
commit first-degree murder;
(c) The trial court erroneously denied the motion for new trial based on the newly
discovered evidence that Frame made statements at her parole hearing that differed
from her sworn testimony at trial.
(2) The petitioner's conviction is based on insufficient evidence, in violation of his right to
due process.
(3) Trial counsel provided ineffective assistance of counsel in several ways:
(a) Trial counsel failed to recommend that the petitioner accept the plea and sentence
proposed by the state;
(b) Trial counsel failed to adequately argue the motion to dismiss based on lost or
destroyed evidence;
(c) Trial counsel failed to file a motion to suppress cell phone data from Frame's cell
phones;

https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult ...

7/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

(d) Trial counsel failed to file motions to exclude the phone data obtained by judicial
subpoenas;

i.

(e) Trial counsel failed to emphasize proof that would have rebutted the state's
assertion that the petitioner was "hovering” around Skyline Hospital.
(4) Cumulative error.
(Doc. No. 1; Doc. No. 16 at 5.)
IV. LEGAL STANDARD
The statutory authority of federal courts to issue habeas corpus relief for persons in state
custody is provided by 28 U.S.C. § 2254, as amended by the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA). A federal court may grant habeas relief to a state
prisoner "only on the ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.” 28 U.S.C. § 2254(a). Upon finding a constitutional error on
habeas corpus review, a federal court may only grant relief if it finds that the error “had
substantial and injurious effect or influence in determining the jury's verdict.” Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993); Peterson v. Warren, 311 F. App'x 798, 803-04 (6th
Cir. 2009).
*9 AEDPA was enacted “to reduce delays in the execution of state and federal criminal
sentences, particularly in capital cases ... and 'to further the principles of comity, finality,
and federalism.’" Woodford v. Garceau, 538 U.S. 202, 206 (2003) (quoting Williams v.
Taylor, 529 U.S. 362, 436 (2000)). AEDPA's requirements “create an independent, high
standard to be met before a federal court may issue a writ of habeas corpus to set aside
state-court rulings.” Uttecht v. Brown, 551 U.S. 1,10 (2007) (citations omitted). As the
Supreme Court has explained, AEDPA's requirements reflect “the view that habeas corpus
is a ‘guard against extreme malfunctions in the state criminal justice systems,' not a
substitute for ordinary error correction through appeal.” Harrington v. Richter, 562 U.S. 86,
102-03 (2011) (quoting Jackson v. Virginia, 443 U.S. 307, 332 n.5 (1979)). Where state
courts have ruled on a claim, AEDPA imposes “a substantially higher threshold" for
obtaining relief than a de novo review of whether the state court's determination was
incorrect. Schriro v, Landrigan, 550 U.S. 465, 473 (2007) (citing Williams v. Taylor, 529 U.S.
362, 410 (2000)).
Specifically, a federal court may not grant habeas relief on a claim rejected on the merits in
state court unless the state decision was “contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States,” or “was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1), (d)(2). A state
court's legal decision is “contrary to” clearly established federal law under Section 2254(d)
(1) “if the state court arrives at a conclusion opposite to that reached by [the Supreme]
Court on a question of law or if the state court decides a case differently than [the
Supreme] Court has on a set of materially indistinguishable facts.” Williams v. Taylor, 529
U.S. at 412-13. An “unreasonable application" occurs when “the state court identifies the
correct legal principle from [the Supreme] Court's decisions but unreasonably applies that
principle to the facts of the prisoner's case.” Id. at 413. A state court decision is not
unreasonable under this standard simply because the federal court finds it erroneous or
incorrect. Id. at 411. Rather, the federal court must determine that the state court's decision
applies federal law in an objectively unreasonable manner. Id. at 410-12.
Similarly, a district court on habeas review may not find a state court factual determination
to be unreasonable under Section 2254(d)(2) simply because it disagrees with the
determination; rather, the determination must be “ 'objectively unreasonable' in light of the
evidence presented in the state court proceedings." Young v. Hofbauer, 52 F. App'x 234,
236 (6th Cir. 2002). “A state court decision involves ‘an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding’ only if it is shown that
the state court's presumptively correct factual findings are rebutted by 'clear and convincing
evidence’ and do not have support in the record.” Matthews v. Ishee, 486 F.3d 883, 889
(6th Cir. 2007) (quoting Section 2254(d)(2) and (e)(1)); but see McMulian v. Booker, 761
F.3d 662, 670 & n.3 (6th Cir. 2014) (observing that the Supreme Court has not clarified the
relationship between (d)(2) and (e)(1) and the panel did not read Matthews to take a clear
position on a circuit split about whether clear and convincing rebutting evidence is required
for a petitioner to survive (d)(2)). Moreover, under Section 2254(d)(2), “it is not enough for
the petitioner to show some unreasonable determination of fact; rather, the petitioner must
show that the resulting state court decision was 'based on’ that unreasonable
determination." Rice v. White, 660 F.3d 242, 250 (6th Cir. 2011).
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult ...

8/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

*10 The standard set forth in 28 U.S.C. § 2254(d) for granting relief on a claim rejected on
the merits by a state court “is a ‘difficult to meet’ and ‘highly deferential standard for
evaluating state-court rulings, which demands that state-court decisions be given the
benefit of the doubt.' ” Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (quoting Richter, 562
U.S. at 102, and Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam)). The petitioner
bears the burden of proof. Pinholster, 563 U.S. at 181.

t

Even that demanding review, however, is ordinarily only available to state inmates who
have fully exhausted their remedies in the state court system. 28 U.S.C. §§ 2254(b) and (c)
provide that a federal court may not grant a writ of habeas corpus on behalf of a state
prisoner unless, with certain exceptions, the prisoner has presented the same claim sought
to be redressed in a federal habeas court to the state courts. Pinholster, 563 U.S. at 182;
Kelly v. Lazaroff, 846 F.3d 819, 828 (6th Cir. 2017) (quoting Wagner v. Smith, 581 F.3d 410,
417 (6th Cir. 2009)) (petitioner must present the “same claim under the same theory" to the
state court). This rule has been interpreted by the Supreme Court as one of total
exhaustion, Rose v. Lundy, 455 U.S. 509 (1982), meaning that each and every claim set
forth in the federal habeas corpus petition must have been presented to the state appellate
court. Picard v. Connor, 404 U.S. 270 (1971); see also Pillette v. Foltz, 824 F.2d 494, 496
(6th Cir. 1987) (exhaustion “generally entails fairly presenting the legal and factual
substance of every claim to all levels of state court review"). Moreover, the substance of
the claim must have been presented as a federal constitutional claim. Gray v. Nethedand,
518 U.S. 152, 162-63(1996).
The procedural default doctrine is ancillary to the exhaustion requirement. See Edwards v.
Carpenter, 529 U.S. 446 (2000) (noting the interplay between the exhaustion rule and the
procedural default doctrine). If the state court decides a claim on an independent and
adequate state ground, such as a procedural rule prohibiting the state court from reaching
the merits of the constitutional claim, a petitioner ordinarily is barred from seeking federal
habeas review. Wainwright v. Sykes, 433 U.S. 72, 81-82 (1977); see also Walker v. Martin,
562 U.S. 307, 315 (2011) (“A federal habeas court will not review a claim rejected by a
state court if the decision of the state court rests on a state law ground that is independent
of the federal question and adequate to support the judgment”); Coleman v. Thompson,
501 U.S. 722 (1991) (same). If a claim has never been presented to the state courts, but a
state court remedy is no longer available (e.g., when an applicable statute of limitations
bars a claim), then the claim is technically exhausted, but procedurally barred. Coleman,
501 U.S. at 731-32.
If a claim is procedurally defaulted, "federal habeas review of the claim is barred unless the
prisoner can demonstrate cause for the default and actual prejudice as a result of the
alleged violation of federal law, or demonstrate that failure to consider the claims will result
in a fundamental miscarriage of justice." Coleman, 501 U.S. at 750. The burden of showing
cause and prejudice to excuse defaulted claims is on the habeas petitioner. Lucas v.
O'Dea, 179 F.3d 412, 418 (6th Cir. 1999) (citing Coleman, 501 U.S. at 754). “ '[Cjause'
under the cause and prejudice test must be something external to the petitioner, something
that cannot fairly be attributed to him[;j... some objective factor external to the defense
[that] impeded ... efforts to comply with the State's procedural rule.” Coleman, 501 U.S. at
753 (emphasis in original). Examples of cause include the unavailability of the factual or
legal basis for a claim or interference by officials that makes compliance “impracticable.” Id.
To establish prejudice, a petitioner must demonstrate that the constitutional error “worked
to his actual and substantial disadvantage.” Perkins v. LeCureux, 58 F.3d 214, 219 (6th Cir.
1995) (quoting United States v. Frady, 456 U.S. 152, 170 (1982)); see also Ambrose v.
Booker, 684 F.3d 638, 649 (6th Cir. 2012) (finding that “having shown cause, petitioners
must show actual prejudice to excuse their default”). “When a petitioner fails to establish
cause to excuse a procedural default, a court does not need to address the issue of
prejudice." Simpson v. Jones, 238 F.3d 399, 409 (6th Cir. 2000). Likewise, if a petitioner
cannot establish prejudice, the question of cause is immaterial.
*11 Because the cause and prejudice standard is not a perfect safeguard against
fundamental miscarriages of justice, the United States Supreme Court has recognized a
narrow exception to the cause requirement where a constitutional violation has “probably
resulted" in the conviction of one who is "actually innocent” of the substantive offense.
Dretke v. Haley, 541 U.S. 386, 392 (2004) (citing Murray v. Carrier, 477 U.S. 478, 495-96
(1986)); accord Lundgren v. Mitchell, 440 F.3d 754, 764 (6th Cir. 2006).
V. ANALYSIS
A. Claims of Trial Court Error
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresult...

9/20

6/10/2021

Dunkley v. Hutchison | WestlawNext
The petitioner claims that the trial court erred in admitting text message evidence and
denying his motion for a new trial and that these erroneous rulings, “taken together,”
deprived him of his due process right to a fair trial. (Doc. No. 1 at 14.) However, he argues
these allegedly erroneous rulings as separate subclaims, and the respondent responds by
asserting that the subclaims are non-cognizable, were procedurally defaulted, and/or fail to
demonstrate a violation of the petitioner's constitutional rights. The court addresses each
subclaim below.

10.

1. Evidentiary Ruling
The petitioner claims that “[t]he trial court erred in granting the State's [Tennessee Rule of
Evidence] 404(b) motion argued on April 5, 2011 regarding the admission of text messages
in relation to the offense, which were outside the scope of the conspiracy" because they
were sent prior to the dates of the conspiracy alleged in the indictment. (Doc. No. 1 at 14.)
The messages at issue were dated between August 2008 and January 2009, while the
indictment referred to a conspiracy that existed between “January 2009 and March 2009.”
(Id. at 15; Doc. No. 12-1 at 6.) The petitioner claims that the earlier text messages,
introduced by the state as evidence of prior bad acts under Rule 404(b), were admitted
without regard to whether they were offered for a proper purpose relative to the material
issues subject to proof, and without consideration of whether their probative value
outweighed the prejudicial effect of their admission. In response, the respondent argues
that this claim, asserting the state court's misapplication of a state rule of evidence, is not
cognizable in this federal habeas proceeding.
The respondent is correct. In support of his claim, the petitioner cites Sixth Circuit cases
applying Federal Rule of Evidence 404(b). (See Doc. No. 1 at 16-17.) But “the Federal
Rules of Evidence clearly are not applicable in a criminal trial in state court,” and a claim
based solely on the application of a state evidentiary rule “is a purely state law issue that is
not cognizable in a federal habeas proceeding.” Allen v. Parris, No. 2:15-CV-23-JRGMCLC, 2018 WL 1595784, at *6 (E.D. Tenn. Mar. 30, 2018), afTd, 795 F. App'x 946 (6th Cir.
2019). As the respondent points out, the petitioner presented this claim to the TCCA as an
issue of state law only, and the TCCA decided the claim as such. See Dunkley, 2014 WL
2902257, at *13-15.2 The petitioner is thus not entitled to federal habeas review of this
claim.
2. Denial of New Trial Based on Evidence Preponderating Against the Verdict
*12 The petitioner claims that the trial court erroneously failed to set aside the jury verdict
against him “as the 13th juror, pursuant to Rule 33(d)” of the Tennessee Rules of Criminal
Procedure. (Doc. No. 1 at 18.) However, this claim is explicitly a matter of state procedural
law that is not cognizable on habeas review, unless it is properly construed as challenging
the sufficiency of the evidence. See Nash v. Eberlin, 258 F. App'x 761, 764 n.4 (6th Cir.
2007) (liberally construing “a manifest-weight-of-the-evidence argument” under state law as
“a complaint that the state court erroneously found his conviction to be supported by
sufficient evidence”); see also, e.g., Young v. Colson, No. 3:12-cv-00304, 2015 WL
9581768, at *28 (M.D. Tenn. Dec. 30, 2015) (dismissing 13th juror claim under Tennessee
Criminal Rule 33 as “aris[ingj under and ... controlled by state law”). The petitioner has
asserted a separate sufficiency-of-the-evidence claim, discussed below. This claim,
therefore, is deemed to be purely a matter of state law and is not a viable habeas claim.
3. Denial of New Trial Based on New Evidence
The petitioner claims that, five months after testifying at his trial, Stephanie Frame made
statements at her parole hearing that were inconsistent with her trial testimony and that the
trial court erred in denying the petitioner's motion for a new trial in order to resolve these
new, inconsistent statements by the state's key witness. The trial court held a hearing on
the petitioner's motion for new trial (Doc. No. 12-19 at 128-181), at which Frame was
called to testify concerning her subsequent statements at her parole hearing. Frame
essentially testified that she informed the parole hearing officer that, while she had
previously known of the conspiracy between the petitioner and Mr. Miller, it was not until
August 2008 that she became actively involved as a co-conspirator by facilitating
communications between the two men. (See id. at 138.) It is the petitioner's position that
Frame's parole hearing testimony was at odds with her trial testimony because it
“effectively minimized her involvement in the conspiracy, ... contrary to her [trial] testimony
wherein she portrayed herself as being the center of the conspiracy discussions that she
alleged occurred between the [petitioner] and Miller.” (Doc. No. 1 at 20.)
This claim of error is asserted in the petition as a state court error that violated the
petitioner's Sixth Amendment right to confront the primary witness against him. (Doc. No. 1
at 21.) However, the claim was not presented in this way to the trial court, where the
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FuNText.html?navigationPath=Search%2Fv1%2Fres...

10/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

petitioner argued his entitlement to a new trial based on “newly discovered evidence."
(Doc. No. 12-3 at 79.) In ruling on this claim, the trial court found as follows:

Ih

The Court finds that the evidence presented at the motion for a new trial is
not new evidence. The defendant refefsTo a summary of involvement by
defendant Frame provided to the parole board which occurred five months
after trial and consisted of a few minutes of statements. At trial, the witness
testified for approximately six hours and was cross-examined by defense
counsel as to her testimony. Furthermore, the testimony provided at the
motion for a new trial is not newly discovered evidence. At most, the
statements provide a basis for impeachment, but that opportunity has
already been provided to the defendant at trial through cross examination.
The parole hearing testimony does not differ as to the defendant's role in
this incident. The Court denies the motion for a new trial on this basis.

(Id. at 100.) The TCCA affirmed this determination, citing the state-law standard for a
showing of “entitlefment] to a new trial on the basis of newly discovered evidence” and
finding that "Ms. Frame's testimony at the parole hearing is not newly discovered
evidence,” nor did the petitioner “provide a basis for establishing that the allegedly
contradictory testimony was material or that it would change the outcome of his trial.”
Dunkley, 2014 WL 2902257, at *17. Thus, to the extent that the petitioner bases his claim
in this court on the state courts' denial of a new trial based on newly discovered evidence
that was “substantially different from [the] sworn testimony at trial” (Doc. No. 1 at 14), he
asks this court “to reexamine state-court determinations on state-law questions,” which “is
not [within] the province of a federal habeas court.” Estelle v. McGuire, 502 U.S. 62, 67-68
(1991).
*13 Insofar as the petitioner claims that he was denied his Sixth Amendment right
"materially ... to confront and cross-examine the primary witness against him” (Doc. No. 1
at 21)—an argument that was raised before the TCCA (see Doc. No. 12-22 at 29) but not
addressed by that court—that claim fails on the merits. “Sixth Amendment jurisprudence
leaves no question about a criminal defendant's right under the Confrontation Clause to
‘impeach, i.e., discredit, the [state's] witnesses],'" Btackston v. Rapelje, 780 F.3d 340,
348-49 (6th Cir. 2015) (quoting Davis v. Alaska, 415 U.S. 308, 316 (1974)), and “a
witness's own inconsistent statements, including recantations of prior inculpatory testimony,
undeniably bear on [the] witness's bias and credibility." Id. at 353. But the petitioner has not
cited, nor is the court aware of, any authority for the proposition that this right extends to
statements made months after the witness testified and was thoroughly cross-examined at
trial, except in situations where there is a second trial that follows the inconsistent
testimony, as in Btackston. In that case, the Sixth Circuit affirmed the grant of the writ,
finding that the habeas petitioner's confrontation and due process rights were violated
when the trial court excluded the out-of-court statements of key prosecution witnesses at
the petitioner's retrial, in the following circumstances:

Before the second trial was held, two of the state's key witnesses recanted
their testimony. Because those witnesses were later determined to be
unavailable at the new trial, the court ordered their earlier testimony read to
the jury, while at the same time denying Blackston the right to impeach their
testimony with evidence of their subsequent recantations.

780 F.3d at 344.
Such procedural circumstances are not present in this case. Even if they were—and
leaving aside the fact that Frame did not recant, but allegedly minimized her early
involvement in the conspiracy (as might be expected at her parole hearing)—the petitioner
must establish as a threshold matter “that the statements are indeed inconsistent." United
States v. Hale, 422 U.S. 171, 176 (1975) (citing 3A J. Wigmore, Evidence § 1040 (J.
Chadbourn rev. 1970)). The state courts were not persuaded of such inconsistency, as the
TCCA made clear when it agreed with the state “that the trial court properly found that Ms.
Frame's testimony at the parole hearing did not ‘significantly differ’ from her testimony at
trial” but was a mere “summary of her six hour trial testimony." Dunkley, 2014 WL
2902257, at *16-17. These findings of fact made by the state courts are presumed correct,
a presumption the petitioner can rebut only by showing clear and convincing evidence to
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fresu...

11/20

6/10/2021

Dunkley v. Hutchison | WestlawNext
the contrary. 28 U.S.C. § 2254(e)(1). The petitioner has failed to make such a showing, or
to demonstrate that the state courts' adjudication of this claim resulted in a decision that
was contrary to federal law or based on an unreasonable determination of the facts. Id. §
2254(d). Accordingly, the court finds no grounds for habeas relief on this claim.

12.

As for the petitioner's claim that the three instances of trial court error addressed above
had the combined effect of denying him a fair trial, such claims based on cumulative
prejudice from rulings that do not individually support habeas relief are not cognizable
under Section 2254. Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005). The court thus
finds it unnecessary to analyze the parties’ arguments over whether the petitioner's failure
to present this overarching, due process-based claim to the state courts amounted to
procedural default that is excused by appellate counsel's ineffectiveness in failing to
"federalize” these claims. (See Doc. No. 16 at 6-7; Doc. Nos. 18, 22.)
B. Sufficiency of the Evidence
The petitioner challenges the sufficiency of the evidence supporting his conviction.
Specifically, he argues that there was insufficient proof of his participation in Frame, Miller,
and Chestnut's conspiracy to kill the victim because the most damaging proof against him
came directly or indirectly from Frame, “and yet much of her testimony regarding the
alleged texts from the [petitioner] and the alleged communications between [him] and
William Miller w[as] speculative." (Doc. No. 1 at 22-25.)
*14 The TCCA properly stated the applicable standard as “whether, after considering the
evidence in the light most favorable to the State, ‘any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt.’ ” Dunkley, 2014 WL
2902257, at *17 (quoting Jackson v. Virginia, 443 U.S. 307, 319 (1979)). In accord with this
standard, “a reviewing court 'faced with a record of historical facts that supports conflicting
inferences must presume— even if it does not affirmatively appear in the record—that the
trier of fact resolved any such conflicts in favor of the prosecution, and must defer to that
resolution.’ ” Cavazos v. Smith, 565 U.S. 1,6 (2011) (quoting Jackson, 443 U.S. at 326)).
Thus, a federal habeas court must resist substituting its own opinion for that of the
convicting jury, York v. Tate, 858 F.2d 322, 329 (6th Cir. 1988), particularly when it comes to
matters of witness credibility, which "is an issue to be left solely within the province of the
jury." Knighton v. Mills, No. 3:07-cv-2, 2011 WL 3843696, at *6 (E.D. Tenn. Aug. 29, 2011)
(citing, e.g., Dee! v. Jago, 967 F.2d 1079, 1086 (6th Cir. 1992)).
In addition to this requirement of deference to the jury verdict concerning the substantive
elements of the crime under state law, this court must defer to the TCCA's consideration of
that verdict under AEDPA. See Tucker v. Palmer, 541 F.3d 652, 656 (6th Cir. 2008) (stating
that “the law commands deference at two levels” when adjudicating sufficiency-of-theevidence claim). Here, the TCCA set out the elements of first-degree murder under Tenn.
Code Ann. § 39-13-202(a)(1),3 and of conspiracy under Tenn. Code Ann. § 39-12-103.4
Dunkley, 2014 WL 2902257, at *19-20 (reciting statutory elements and noting that “[tjhe
essential feature of the crime of conspiracy is the accord-the agreement to accomplish a
criminal or unlawful act," which “may, and often will be, proven by circumstantial evidence”).
It then considered the sufficiency of the proof of those elements, as follows:
The evidence, in the light most favorable to the State, established that Defendant
Dunkley and Ms. Frame were lovers for two and a half years and both desired the
elimination of the victim, Ms. Dunkley. Defendant Dunkley and Ms. Frame discussed via
text message various plans to murder Ms. Dunkley, and Defendant Dunkley provided
Defendant Miller with a weapon. Defendant Dunkley provided information to Ms. Frame
and Defendant Miller about Ms. Dunkley's work schedule, the premises in and around
her work building, and what vehicles she drove. Transcripts of the text messages show
that Defendant Dunkley made many references throughout to killing Ms. Dunkley, such
as she was on “borrowed time” and was going to be “taken out.” Defendant Dunkley
sent text messages to Ms. Frame expressing his frustration with Ms. Dunkley and
stating that he needed Ms. Dunkley to be killed before things got “bad." Defendant
Dunkley planned to pay Defendant Miller with money he collected from the life insurance
policies.
The evidence that corroborates Ms. Frame's testimony is Ms. Dunkley's testimony, the
transcripts of the text messages, the insurance agent's testimony, and Mr. Sherrell's
testimony.5 A cellular telephone records custodian testified that the text messages sent
to Ms. Frame discussing killing Ms. Dunkley came from a telephone number registered
to Defendant Dunkley. Ms. Dunkley testified that she and Defendant Dunkley were in
the process of divorcing in early 2009 and that she had requested the divorce court to
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres...

12/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

award her one of Defendant Dunkley's vehicles after hers was repossessed. This
testimony corroborates Ms. Frame's statement that Defendant Dunkley wanted Ms.
Dunkley killed within a certain time frame, before their divorce situation “got bad." Ms.
Dunkley also testified that she was aware of Defendant Dunkley's sexual relationship
with Ms. Frame, and that she and Defendant Dunkley had had an “ugly" marital
separation in 2008, corroborating Ms. Frame's testimony that Defendant Dunkley had a
motive to kill his wife. Ms. Dunkley testified that Defendant Dunkley owned several
weapons and a holster, corroborating Ms. Frame's testimony that Defendant Dunkley
had given Defendant Miller a weapon to use in the murder. An agent from State Farm
Insurance Agency testified that Defendant Dunkley owned two insurance policies] on
Ms. Dunkley's life totaling $300,000, corroborating Ms. Frame's testimony that the
insurance money would be used to pay Defendant Miller after he killed Ms. Dunkley,
and further providing evidence of Defendant Dunkley's motive. Mr. Sherrell testified that
he knew that Defendant Dunkley and Ms. Frame were in a sexual relationship while he
was married to Ms. Dunkley.

13.

*15 Additional evidence supporting Defendant Dunkley's conviction for conspiracy is
evidence of his motive to have a shared life with Ms. Frame and his potential financial
gain from Ms. Dunkley's death. The text messages provide direct and circumstantial
evidence that an accord existed, however informal or unspoken, between Defendant
Dunkley, Ms. Frame, and Defendant Miller to kill Ms. Dunkley, and that they acted with
the purpose of promoting or facilitating her murder. Defendant Dunkley committed overt
acts in furtherance of the offense, stating that Ms. Dunkley needed to be killed, providing
information regarding her schedule and whereabouts, providing a gun, and contributing
money to pay Defendant Miller. Accordingly, we conclude that the evidence was
sufficient for a jury [to] find beyond a reasonable doubt that Defendant Dunkley was
guilty of conspiracy to commit first degree murder. Defendant Dunkley is not entitled to
relief on this issue.
Dunkley, 2014 WL 2902257, at *20-21.
This court has reviewed the transcript of the petitioner's trial and finds that the TCCA's
decision is supported in the record. This is not a close call; there is ample direct and
circumstantial evidence of the petitioner's participation in a conspiracy to kill the victim, as
described above and in Frame's testimony (Doc. No. 12-12) and the transcripts of their text
messages (Doc. Nos. 12-16, 12-17, 12-18). In short, despite the petitioner's assertion that
the record lacks reliable evidence of his involvement in the conspiracy, it is the province of
the jury to determine the reliability of witness testimony, and Frame's testimony was well
corroborated.6 Even if this court disagreed with the TCCA's finding of corroboration, the
court may not rely on its own opinion of the weight due the testimonial and other evidence
of the petitioner's involvement, but must defer to the jury's resolution of evidentiary
conflicts. The evidence was plainly sufficient for a rational juror to find the elements of
conspiracy to commit first-degree murder beyond a reasonable doubt. The petitioner's
claim to the contrary is without merit.
C. Ineffective Assistance of Counsel
The petitioner claims that his trial counsel rendered ineffective assistance by (1) failing to
recommend that he accept the plea deal offered by the state; (2) failing to adequately
argue her motions under State v. Ferguson, 2 S. W. 3d 912 (Tenn. 1999), based on lost or
destroyed evidence; (3) failing to move to suppress the phone call data and text messages;
(4) failing to move to suppress the phone data obtained by judicial subpoena; and (5)
failing “to emphasize proof that would have rebutted the State's assertion that Petitioner
was 'hovering' around Skyline hospital." (Doc. No. 16 at 5; Doc. No. 1.)
*16 All federal claims of ineffective assistance of counsel are subject to the highly
deferential two-prong standard of Strickland v. Washington, 466 U.S. 668 (1984), which
asks: (1) whether counsel was deficient in representing the defendant; and (2) whether
counsel's alleged deficiency prejudiced the defense so as to deprive the defendant of a fair
trial. Id. at 687. To meet the first prong, a petitioner must establish that his attorney's
representation “fell below an objective standard of reasonableness," and must overcome
the “strong presumption that counsel's conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that... the
challenged action ‘might be considered sound trial strategy.’" Id. at 688-89. The
“prejudice” component of the claim “focuses on the question of whether counsel’s deficient
performance renders the result of the trial unreliable or the proceeding fundamentally
unfair." Lockhart v. Fretwell, 506 U.S. 364, 372 (1993). Prejudice, under Strickland,
requires showing that "there is a reasonable probability that, but for counsel's
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd 11 eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1 %2Fres...

13/20

6/10/2021

Dunkley v. Hutchison | WestlawNext
unprofessional errors, the result of the proceeding would have been different." Strickland,
466 U.S. at 694. "A reasonable probability is a probability sufficient to undermine
confidence in the outcome." Id.
As discussed above, however, a federal court may not grant habeas relief on a claim that
h'as'been rejected on the merits by a state court, unless the petitioner shows that the state
court's decision "was contrary to" law clearly established by the United States Supreme
Court, or that it "involved an unreasonable application of’ such law, or that it "was based on
an unreasonable determination of the facts” in light of the record before the state court. 28
U.S.C. §§ 2254(d)(1) and (2); Williams v. Taylor, 529 U.S. 362, 412 (2000). Thus, when an
exhausted claim of ineffective assistance of counsel is raised in a federal habeas petition,
the question to be resolved is not whether the petitioner's counsel was ineffective. Rather,
”[t]he pivotal question is whether the state court’s application of the Strickland standard was
unreasonable." Harrington v. Richter, 562 U.S. at 101. As the Supreme Court clarified in
Harrington,

This is different from asking whether defense counsel's performance fell
below Strickland's standard. Were that the inquiry, the analysis would be no
different than if, for example, this Court were adjudicating a Strickland claim
on direct review of a criminal conviction in a United States district court.
Under AEDPA, though, it is a necessary premise that the two questions are
different. For purposes of § 2254(d)(1), an unreasonable application of
federal law is different from an incorrect application of federal law. A state
court must be granted a deference and latitude that are not in operation
when the case involves review under the Strickland standard itself.

Id. (internal quotation marks and citation omitted). The TCCA correctly identified and
summarized the Strickland standard applicable to the petitioner's claims of ineffective
assistance. Dunkley v. State, M2016-00961-CCA-R3-PC, 2017 WL 2859008, at *6
(Tenn. Crim. App. July 5, 2017), perm. app. denied (Tenn. Nov. 16, 2017). Accordingly, the
critical question is whether the state court applied Strickland reasonably in reaching its
conclusions on each ground raised by the petitioner.
1. Plea Negotiations
The petitioner argues that “[tjhe most crucial point in [his] case was the first day of the ...
trial, when trial counsel received the first and only offer to settle the Petitioner's case."
(Doc. No. 1 at 28-29.) He asserts that, "[rjather than engage in a meaningful discussion
with Petitioner about the offer in light of the devastating trial proof,” which included “an
abundance of prejudicial text messages with no plausible innocent explanation," "trial
counsel allowed the case to proceed to trial [when she] should have requested time to
discuss the offer with the Petitioner and should have recommended that [he] accept the
State's offer.” (Doc. No. 1 at 29, 35.) He asserts that he would have accepted the offer of a
15-year sentence, and that his conviction should therefore be set aside so that he can
“accept the plea bargain offered by the State.” (Id. at 29, 36.)
*17 The TCCA correctly stated that criminal defendants have a right to the effective
assistance of counsel in the plea-bargaining process, citing Lafler v. Cooper, 566 U.S. 156
(2012). Dunkley, 2017 WL 2859008, at *6. Testimony as to what transpired during that
process was introduced at the petitioner's post-conviction evidentiary hearing, and
described by the TCCA as follows:
The Petitioner's testimony was that he did not know that the State had conveyed a plea
offer. While trial counsel testified that she conveyed a plea offer to the Petitioner, the
prosecutor testified that there was never an offer made by the State, and the trial court
accredited the prosecutor's testimony....
Trial counsel’s recollection was that the State made a plea offer which she conveyed to
the Petitioner. However, her testimony was that she offered the Petitioner no advice
regarding any offer, despite her assessment of the State's proof as particularly strong
and her belief that pleading-guilty in exchange for a fifteen-year sentence would be in the
Petitioner's best interest. During a five-minute discussion in which trial counsel conveyed
the State's offer without any advice, the Petitioner indicated he would plead guilty in
exchange for a six-year sentence. The post-conviction court found that no plea offer was
extended by the State, but the parties agree that the State was willing to consider
recommending a fifteen-year sentence in exchange for a guilty plea and that trial counsel
offered the Petitioner no advice during her discussion with him, despite her opinion that
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres...

14/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

15.

he would benefit from the bargain. Given the standards outlined above, trial counsel's
failure to offer any advice during plea negotiations was deficient.
Id. at *7.
—-

After finding counsel's performance deficient, the TCCA examined the prejudice prong of
this ineffective assistance claim, stating that, under Lafler, "the prejudice inquiry should
address whether but for the ineffective advice of counsel there is a reasonable probability
that the plea offer would have been presented to the court (i.e., that the defendant would
have accepted the plea and the prosecution would not have withdrawn it in light of
intervening circumstances)." Id. (citation and internal quotation marks omitted). Employing
this standard, the TCCA determined that the petitioner could not demonstrate prejudice for
the following reasons:
First, the Petitioner has not shown that the State actually made him an offer to reject.
The post-conviction court credited the prosecutor’s testimony that no offer was extended.
Even if the Petitioner argues that trial counsel's deficiency consists of failing to persuade
him to make the State an offer to plead guilty to the indicted offenses and serve fifteen
years, the Petitioner cannot show prejudice. This is because the prejudice inquiry directs
the court to determine whether there is “a reasonable probability that the plea offer would
have been presented to the court.” Lafler, 566 U.S. at 164; see [Sfafe v.j Garrison, 40
S.W.3d at 431-32 (concluding that there was no prejudice in failure to communicate a
plea offer because the evidence indicated that the petitioner would have rejected the
offer). Here, the Petitioner introduced proof that the State would have considered
accepting a plea to the indicted offenses and would have recommended the minimum
sentence. The evidence also showed that one of the co-defendants had expressed an
interest in a plea agreement. However, the prosecutor's testimony established that the
State's acceptance of any plea would have been contingent on the approval of the victim
and on an offer to plead guilty to the indicted offenses from both the co-defendants who
were being tried contemporaneously with the Petitioner: Mr. Chestnut and Mr. Miller. The
Petitioner introduced no proof that the second co-defendant or that the victim would have
agreed to the plea agreements. Accordingly, he has failed to show a reasonable
probability that the plea offer would have been presented to the trial court, and he cannot
demonstrate prejudice.
*18 Id.
The TCCA properly applied Strickland and Lafler in determining that it was not reasonably
probable that, but for counsel's failure to advise the petitioner, the proceedings would have
resulted in a plea agreement's being presented to the trial court. The petitioner argues that
the TCCA should have presumed the prejudicial effect of counsel's deficient performance
based on the 25-year sentence he ultimately received, compared to the 15-year term under
discussion just prior to the beginning of trial and the petitioner's agreeableness at that time
to serve 6 years. (Doc. No. 1 at 35-36; Doc. No. 16 at 9.) He further argues that the
TCCA's application of Lafler was unreasonable because there is no reason to believe that
the state would have withdrawn its plea offer, had counsel requested additional time to
consider it, or that the trial court would have declined to accept the terms of any plea deal
that had been presented. (Id.)
However, the TCCA explicitly based its conclusion on its factual finding that the state's offer
to recommend the minimum sentence in exchange for a guilty plea was contingent upon
the petitioner, Miller, Chestnut, and the victim's all agreeing to those terms. Having failed to
present proof to the contrary, or proof that the victim, in particular, would have agreed to a
minimum-sentence recommendation even if all defendants had agreed to plead guilty, the
petitioner provided no grounds to establish that any plea agreement would have been
presented to the trial court, even if counsel had persuaded him that it was in his individual
interest to accept a 15-year sentence. Cf. Troglin v. Westbrooks, No. 1:12-cv-41,2014 WL
5810312, at *11 (E.D. Tenn. Nov. 7, 2014) (finding that state court did not unreasonably
apply Strickland when it rejected ineffective assistance claim based on petitioner's failure to
offer proof of prejudice during post-conviction proceedings) (citing Martin v. Mitchell, 280
F.3d 594, 608 (6th Cir. 2002)). Moreover, there is reason to believe that the state, with a
strong case and ready to proceed on the morning of trial, would -not at that point have been
willing to delay the proceedings while the petitioner and his co-defendants explored
whether they could agree to plead guilty. The TCCA reasonably applied Strickland's
prejudice standard in concluding from the record before it that the result of the proceeding
would not have been different, even if counsel had given appropriate advice to the
petitioner regarding the state's willingness to recommend a 15-year sentence. Under

https://nextcorrectional.westlaw.com/Document/l94e22a5002dd 11 eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1 %2Fres...

15/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

AEDPA, this ends the inquiry into this Strickland claim, regardless of whether this court
may have adjudicated the claim differently. Habeas relief is not warranted based on
counsel's failure to advise the petitioner to plead guilty.

I6-

2. Motions Based on Failure to Preserve G-1 Phone
The petitioner claims that counsel performed deficiently.in arguing, under State v.
Ferguson, the issue of the state's “failure to preserve the T-Mobile G-1 phone that was
seized by police from Ms. Frame on March 2, 2009, but then returned to Ms. Frame's
mother, Maggie Alderson, after police had performed some testing on the phone." (Doc.
No. 1 at 38.) The TCCA described counsel's pretrial motions on this issue and affirmed the
post-conviction trial court's finding that she had not performed deficiently, as follows:
'19 Trial counsel filed the initial Ferguson motions in November [2010] but,
misunderstanding the burden of proof, she introduced no evidence at the hearing on the
motions, and the motions were denied. Trial counsel then filed subsequent motions [in
March 2011] relating to the loss of the G-1 telephone. She struck these motions,
explaining that she had subpoenaed Ms. Frame's mother and stepfather and that they
had produced the G-1 telephone on the morning of the hearing. She acknowledged that
the motions were a “fishing expedition" and that the theory that the G-1 telephone
contained additional exculpatory data was “speculation.” The Petitioner argues that the
majority of the incriminating text messages came from the G-1 telephone and that the
Petitioner was prejudiced by trial counsel's failure to adequately litigate the issue. The
Petitioner's theory on post-conviction appears to be that Ms. Frame could have used an
application to alter the text messages and that this application could have been
discovered by a thorough examination of the cell phone. The post-conviction court found
that counsel “effectively arguefd]" the motion and that the Petitioner failed to introduce
evidence that the phone contained exculpatory evidence.
The post-conviction court found that trial counsel did not perform deficiently because she
raised the Ferguson issue. Trial counsel did not introduce proof on the issue during the
first hearing, and the motion was denied. The motion was based on alleged photographs,
images, voicemails, and call logs which had not been downloaded by the State during
the data extraction. We note that the record is not exactly clear regarding the events
surrounding the second motion, but it appears that trial counsel struck the motion when
the G-1 telephone was made available to the defense. The Petitioner does not argue that
trial counsel was deficient in not testing the G-1 telephone once it was made available.
Neither does the Petitioner allege that the G-1 telephone was missing data at the time
that it became available to the defense. The record does not preponderate against the
finding that trial counsel did not perform deficiently because she raised the loss of the G1 telephone as an issue and apparently obtained the G-1 telephone for inspection prior
to trial.
Dunkley, 2017 WL 2859008, at ‘8.
The TCCA proceeded to evaluate prejudice under Strickland and determined that the
petitioner was not prejudiced by counsel's presentation of the Ferguson motions because
(1) he “presented no evidence, beyond his own testimony, that such an application [used to
fabricate text messages] existed and no evidence at all that such an application was
present on [the G-1] cell phone"; (2) he acknowledged that the majority of the text
messages on the phone were ones he had sent or received; (3) he does not allege that the
G-1 cell phone was tainted when he obtained it; (4) he acknowledged that text messages
on the G-1 cell phone would have been present on his own cell phone had he not actively
deleted them; and (5) "the 'shadow' telephone also contained numerous incriminating te[x]t
messages which established the Petitioner's participation in the plot." Id. at *9.
The petitioner argues that deficient performance is established by counsel’s admission to
not initially understanding her burden of proof with regard to the Ferguson motions and her
failure to build a record of the “potentially exculpatory evidence [that] was forever lost"
when the state returned the G-1 phone to Frame's mother, rather than retaining custody of
it after data extraction. (Doc. No. 1 at 40.) But as the state courts observed, counsel raised
the Ferguson issue, pursued it after the initial denial of her motion, and eventually obtained
the G-1 phone, which is not alleged to have been missing any identifiable data or to have
contained data that was a surprise to the petitioner. These factors were reasonably cited as
grounds for finding no deficient performance or prejudice.
The petitioner's remaining argument on this claim is that, due to the state's failure to retain
custody of the phone, he was deprived of the ability to ascertain whether text messages
stored on the phone may have been fabricated or altered so as to remove potentially
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres...

16/20

6/10/2021

Dunkley v. Hutchison | WestlawNext

\1 ■

exculpatory material, in a way that would not have been apparent to counsel when the
phone was subsequently produced to her. The TCCA dispatched this final contention by
reasonably determining that, in the absence of any grounds for believing that the contents
of the phone had in fact been fabricated or altered, counsel's failure to assert such a
speculative theory did not render her performance deficient nor did it result in prejudice to
the petitioner. Dunkley, 2017 WL 2859008, at *9. While the petitioner now contends that
competent counsel would have pursued this argument by, e.g., "calljingj an expert to state
what information could have been gleaned from the phone had it been preserved" (Doc.
No. 1 at 40), the TCCA found that his claim based on counsel's failure to pursue a tainted
evidence theory was doomed by the failure to present any proof, beyond his own post­
conviction testimony, that the phone's contents could have been altered in a way that
“would have undermined the corroborating evidence involving him in the plot.” Dunkley,
2017 WL 2859008, at *9. This was a reasonable application of Strickland's prejudice
standard. See Trogiin, 2014 WL 5810312, at *11 (“Given petitioner's failure to offer
testimony at the post-conviction hearing to demonstrate prejudice flowed from the absence
of expert testimony at trial, the state court did not unreasonably apply Strickland when it
rejected this claim.”).
*20 This court finds that the TCCA's decision on this claim reasonably applied Strickland
and that the petitioner is therefore not entitled to habeas relief.
3. Failure to Challenge Admissibility of Data Obtained Through Search Warrants
The petitioner claims that counsel failed to move to suppress the data extracted from
Frame's cell phones on grounds of a defect in the search warrants and that this decision,
following counsel's failure to pursue her Ferguson motions after receiving the G-1 phone,
meant that she knew that the damaging text messages would come into evidence and
should therefore have pressed the petitioner to begin plea negotiations. (Doc. No. 1 at 3637, 41.) The TCCA considered this claim as follows:

The Petitioner next asserts that trial counsel should have challenged the
search warrants related to Ms. Frame's telephones. The Petitioner,
however, concedes in his brief that he cannot show deficiency or prejudice
on this issue based on lack of standing to challenge the warrants. Instead,
he asserts that this evidence should have spurred trial counsel to negotiate
a plea agreement. Accordingly, we conclude that the Petitioner is not
entitled to relief based on trial counsel's failure to file a motion to suppress
these records, and we have already determined above that the Petitioner
has not demonstrated prejudice from trial counsel's failure to advise the
Petitioner to extend a plea offer to the State.

Dunkley, 2017 WL 2859008, at *9. Petitioner rightly conceded his lack of standing to
challenge the warrants to search Frame's phones, as he had no privacy interest in those
phones protected by the Fourth Amendment. See United States v. Hopper, 58 F. App'x
619, 624 (6th Cir. 2003) (stating that “suppression of the product of a Fourth Amendment
violation can be successfully urged only by those whose rights were violated by the search
itself, not by those who are aggrieved solely by the introduction of damaging evidence”).
The TCCA's resolution of this issue was reasonable. Habeas relief is not warranted on this
ineffective assistance claim.
4. Failure to Challenge Judicial Subpoenas for Cell Phone Data
The petitioner claims that counsel was ineffective in failing to challenge the data obtained
via subpoena of his telephone records, based on the insufficiency of the affidavits
supporting the subpoena requests. After reciting the state statutory requirements for a
proper affidavit in support of a subpoena request, see Tenn. Code Ann. § 40-17-123(c), the
TCCA found that the petitioner could not show prejudice resulting from counsel's failure to
challenge the subpoenas, agreeing with the state that, even if the affidavits in support of
the subpoenas had been found defective, the state could have simply cured the defect and
obtained new subpoenas. Dunkley, 2017 WL 2859008, at *10. The TCCA additionally
found as follows:

Moreover, the Petitioner cannot demonstrate a reasonable probability that
the outcome of the proceeding would have been different even if the
records had been suppressed. At trial, the State introduced the recorded
conversations between Ms. Frame and Mr. Marshall to show that Ms.
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FuHText.html?navigationPath=Search%2Fv1%2Fres...

17/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

Frame was attempting to hire Mr. Marshall to murder the victim. Mr.
Marshall's testimony and the gun and other items Ms. Frame gave him were
also introduced at trial. Ms. Frame testified that she attempted to procure
the murder at the behest of the Petitioner, who was in the process of
divorcing the victim. Ms. Frame's cell phone records were the source of the
corroborating information which trial counsel described as "damning.” The
records extracted from Ms. Frame's G-1 and “shadow” phones contained
the substance of numerous text messages in which the Petitioner solicited
or referenced the murder of his wife. The records obtained from Ms.
Frame's service provider confirmed many points of contact between her
telephone number and the Petitioner’s. The Petitioner's subpoenaed
telephone records did not reveal the substance of any written or oral
communication but only confirmed that his telephone had been involved in
points of contact with Ms. Frame's telephone number. This evidence, which
was largely already confirmed through Ms. Frame's service provider, was of
marginal value at trial. Accordingly, the Petitioner cannot show prejudice.

*21 Id.
While the petitioner argues at length over Detective Tarkington’s failure to comply with
Section 40-17-123(c) and the likelihood that a motion to suppress the subpoenaed records
would have been granted (Doc. No. 1 at 42-44), he does not argue that the TCCA's finding
of no resulting prejudice was based on an unreasonable application of Strickland or an
unreasonable determination of the facts in light of the evidence of record. Because this
court finds that the TCCA's determination that the petitioner was not prejudiced by any
deficient performance in this regard was eminently reasonable, habeas relief is not
warranted on this claim.
5. Failure to Challenge Proof of Presence at Skyline Hospital
The petitioner claims that counsel was ineffective in failing to effectively rebut the state's
assertion that he was in the area of Skyline Hospital on the night that Frame was arrested
in the hospital parking lot. The petitioner claims that the post-conviction record contains
location data from his cellular service provider establishing that his cell phone was not in
the area of Skyline Hospital on that night, contrary to the state's suggestion from witness
testimony that a black Hummer such as the one owned by the petitioner was seen
“hovering around Skyline Hospital.” (Doc. No. 1 at 45.) He states that counsel should have
emphasized these records of his cell phone's location to rebut the state's evidence and
argument placing him at Skyline Hospital, where he was allegedly present “to ensure that
the conspiracy materialized.” (Id.) More importantly, the petitioner claims that “[tjrial counsel
should have introduced witness testimony” to rebut the state's position—the testimony of
Ms. Williams-Dunkley, who could have “placjedj Mr. Dunkley and the Hummer at his
house and NOT at Skyline Hospital.” (Id.)
As recounted by the TCCA,

The Petitioner asserted at the hearing that Ms. Williams-Dunkley could
have testified to his whereabouts and to the fact that he was not driving his
Hummer because he had made it over to her use. Trial counsel noted that
she had cross-examined the State's witnesses to establish that the vehicle
was popular, and she stated that there had been some evidence in the
telephone records that the Petitioner's telephone was using a cellular tower
in Goodlettsville, which is located a few miles north of Skyline hospital. She
testified that she did not call Ms. Williams-Dunkley due to Ms. WilliamsDunkley's credibility issues, which were then detailed by Detective
Tarkington. The post-conviction court found that the decision not to call Ms.
Williams-Dunkley was reasonable trial strategy and that the telephone
records documenting the Petitioner's location were before the jury.

Dunkley, 201-7 WL 2859008, at *11. The TCCA affirmed the post-conviction trial court's
findings, stating that the petitioner's failure to offer Ms. Williams-Dunkley's testimony at the
post-conviction evidentiary hearing precluded a showing of prejudice from counsel's failure
to call her as a trial witness; that counsel did not perform deficiently in failing to call Ms.
Williams-Dunkley as a trial witness, given her known credibility issues; that the cellular
tower evidence was not conclusive with regard to the petitioner's cellular telephone being
https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres...

18/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

n

outside the vicinity of the hospital at the time that Frame was arrested; and that "the
Petitioner's presence at or absence from the hospital was not material to his prosecution" in
any event, because "his conviction was based on the testimony of Ms. Frame and the
numerous text messages indicating his desire to have his wife murdered and his
solicitation of others to achieve that end." Id. For these reasons, the TCCA found that the
petitioner could not establish deficient performance or prejudice under Strickland. Because
this was a reasonable application of Strickland, the petitioner is not entitled to habeas relief
on this claim.
D. Cumulative Prejudice
*22 Finally, the petitioner argues that the court must consider the cumulative prejudicial
effect of “all the grounds dealing with court errors, insufficient evidence to convict, and
ineffective assistance of counsel” when deciding whether he is entitled to habeas relief.
(Doc. No. 1 at 46.) However, as the court previously noted, claims based on cumulative
prejudice from rulings that do not individually support habeas relief are not cognizable
under Section 2254. Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005).
VI. CONCLUSION
For the foregoing reasons, the habeas corpus petition will be denied and this matter will be
dismissed with prejudice.
The court must issue or deny a certificate of appealability (“COA") when it enters a final
order adverse to a Section 2254 petitioner. Rule 11, Rules Gov'g § 2254 Cases. A
petitioner may not take an appeal unless a district or circuit judge issues a COA. 28 U.S.C.
§ 2253(c)(1); Fed. R. App. P. 22(b)(1). A COA may issue only if the petitioner “has made a
substantial showing of the denial of a constitutional right,” 28 U.S.C. § 2253(c)(2). A
"substantial showing” is made when the petitioner demonstrates that “reasonable jurists
could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)
(citations and internal quotation marks omitted). “[A] COA does not require a showing that
the appeal will succeed," but courts should not issue a COA as a matter of course. Id. at
337.
Because reasonable jurists could not debate whether the petitioner’s claims should have
been resolved differently or are deserving of encouragement to proceed further, the court
will deny a COA. The petitioner may seek a COA directly from the Sixth Circuit Court of
Appeals, Rule 11(a), Rules Gov'g § 2254 Cases.
An appropriate order is filed herewith.
All Citations
Slip Copy, 2020 WL 5797982
Footnotes

1

Although charges were pending against Frame at the time of the petitioner's
trial, she denied having any agreement with the state to testify or anticipating
any benefit to herself as a result of her testimony as a witness for the state.
(Doc. No. 12-19 at 139.) She testified at the petitioner's hearing on motion for
new trial that “[t]he reason for (her] testimony is so that the truth would've
gotten out.” {Id. at 140.)

2

The TCCA found as follows:
We conclude that text messages between Ms. Frame and Defendant
Dunkley provided a background of their romantic relationship, which was
indicative of motive to kill Defendant Dunkley's wife. In the months leading
up to the date alleged on the indictment, text messages were exchanged
about Defendant Dunkley wanting to choke and kill Ms. Dunkley. The
charge of conspiracy required the State to prove that Defendant Dunkley
had the culpable mental state to commit the offense and that he entered
into an agreement, however informal, with Ms. Frame and/or Defendant
Miller. The text messages about Defendant Dunkley wanting to kill his
wife, their marital troubles, and his efforts to procure money to pay for the
weapon or to pay another person to do the killing is evidence that
Defendant Dunkley had the intent to carry out the murder. Thus, we agree

https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres ...

19/20

Dunkley v. Hutchison | WestlawNext

6/10/2021

2°

with the trial court's determination that this evidence was admissible under
the purposes of Rule 404(b).
Dunkley, 2014 WL 2902257, at *15.
3__

First-degree murder is the "premeditated and intentional killing of another,”
and " 'premeditation' is an act done-after the exercise of reflection and
judgment." Tenn. Code. Ann. § 39-13-202(a)(1), (d).

4

“The offense of conspiracy is committed if two (2) or more people, each
having the culpable mental state required for the offense that is the object of
the conspiracy, and each acting for the purpose of promoting or facilitating
commission of an offense, agree that one (1) or more of them will engage in
conduct that constitutes the offense." Tenn. Code Ann. § 39-12-103(a). A
person may be convicted of conspiracy only if “an overt act in pursuance of
the conspiracy is alleged and proved to have been done by the person or by
another with whom the person conspired.” Id. § 39-12-103(d).

5

Mr. Sherell was a friend of Brian and Kristi Dunkley during their marriage,
who later became romantically involved with Kristi Dunkley.

6

It bears noting here that “[tjhe rule that a conviction must be supported by
more than the uncorroborated [testimony] of an accomplice is a state-law rule
and not one of constitutional dimension.” Beaird v. Parris, No. 3:14-cv-01970,
2015 WL 3970573, at *13 (M.D. Tenn. June 30, 2015) (citing United States v.
Gallo, 763 F.2d 1504, 1518 (6th Cir. 1985)).

End of
Document

WestlawNext. © 2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

iffjili iwMnwnwnws
Thomson Reuters ihmbfproviding legal advice

https://nextcorrectional.westlaw.com/Document/l94e22a5002dd11eb8683e5d4a752d04a/View/FullText.html?navigationPath=Search%2Fv1%2Fres...

20/20

ai
No. 20-6221
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

BRIAN DUNKLEY,
Petitioner-Appellant,
v.
SHAWN PHILLIPS, Warden,
.

Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Apr 22, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: WHITE, Circuit Judge.
Brian Dunkley, a pro se Tennessee prisoner, appeals the district court’s judgment denying
his petition for a writ of habeas corpus brought pursuant to 28 U.S.C. § 2254. Dunkley applies for
a certificate of appealability (COA). See Fed. R. App. P. 22(b).
C In 2011, a jury convicted Dunkley of conspiracy to commit first-degree murder, in violation
of Tennessee Code Annotated §§ 39-12-103 and 39-13-202. The convictions stemmed from
Dunkley’s efforts to arrange the murder of his then-wife. The trial court sentenced Dunkley to
twenty-five years of imprisonment and denied his motion for a new trial. The Tennessee Court of
Criminal Appeals affirmed. State v. Dunkley, No. M2012-00548-CCA-R3-CD, 2014 WL 2902257
(Tenn. Crim. App. June 25, 2014), perm. app. denied (Tenn. Nov. 20, 2014). Dunkley raised
various claims of ineffective assistance of trial counsel in a petition for postconviction relief, which
the trial court denied after an evidentiary hearing. The Tennessee Court of Criminal Appeals
affirmed. Dunkley v. State, No. M2016-00961-CCA-R3-PC, 2017 WL 2859008 (Tenn. Crim.
App. Apr. 18, 2017), perm. app. denied (Tenn. Nov. 16, 2017).
In 2017, Dunkley filed a § 2254 petition claiming that: (1) his rights to due process and a
----- fair-trial were violated.in various ways; (2) insufficient evidence supported his conviction; trial
counsel performed ineffectively by failing to (3) recommend that he accept a plea deal,

21
No. 20-6221
-2(4) adequately argue a motion to dismiss based on lost or destroyed evidence, (5) file a motion to
suppress phone data from a co-conspirator’s cellphones, (6) file motions to exclude phone data
obtained through judicial subpoenas, and (7) rebut the prosecution’s assertion that he was
“hovering” in his vehicle near a meeting of his co-conspirators; and (8) cumulative error entitled
him to relief. After a response from the State, the district court denied Dunkley’s petition on the
merits and denied him a CO A 7J The district court granted him permission to proceed in forma
pauperis on appeal.
£ Dunkley applies for a COA from this court. To obtain a COA, a petitioner must make “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When the
denial of a motion is based on the merits, “[t]he petitioner must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.” Slack
v. McDaniel, 529 U.S. 473, 484 (2000). To satisfy this standard, the applicant must demonstrate
“that jurists of reason could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
When reviewing a district court’s application of the standards of review of § 2254(d) after
a state court has adjudicated a claim on the merits, this court asks whether reasonable jurists could
debate whether the district court erred in concluding that the state-court adjudication neither
(1) “resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the .Supreme Court of the United States”: nor
(2) “resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d); see Miller-El, 537
U.S. at 336. Dunkley seeks a COA only on his claims of ineffective assistance of counsel. He has
therefore abandoned his other claims on appeal. See Jackson v. United States, 45 F. App’x 382,
385 (6th Cir. 2002) (per curiam); Elzy v. United States, 205 F.3d 882, 886 (6th Cir. 2000).
-To show that counsel performed ineffectively, a petitioner must establish that (1) counsel
performed deficiently and (2) the deficient performance prejudiced his defense. Strickland v.

53
No. 20-6221
-3Washington, 466 U.S. 668, 687 (1984). Counsel’s performance is considered deficient when
“counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed-the
defendant by the Sixth Amendment.” Id. Deficient performance is prejudicial when “counsel’s
errors were so serious as to deprive the defendant of a fair trial, a trial whose result is reliable.”
Id. To establish prejudice, a petitioner must show “that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the proceeding would have been different.” Id. at
694.

Moreover, in habeas review of ineffective-assistance claims where a state court has

adjudicated the claims on the merits, the district court must apply a doubly deferential standard of
review: “[T]he question [under § 2254(d)] is not whether counsel’s actions were reasonable. The
question is whether there is any reasonable argument that counsel satisfied Strickland’s deferential
standard.” Harrington v. Richter, 562 U.S. 86, 105 (2011).
(a) Plea-Bargain Advice. Dunkley first seeks a COA on his claim that trial counsel
performed ineffectively by failing to advise him to accept a plea offer from the prosecution that
included a fifteen-year sentence. “[D]efense counsel has the duty to communicate'formal offers
from the prosecution to accept a plea ....” Missouri v. Frye, 566 U.S. 134, 145 (2012). Failure
to perform as constitutionally adequate counsel may violate the Sixth Amendment, but only if
prejudice results. Id. at 147. jin the plea context, the prejudice inquiry asks whether there is “a
reasonable probability ... that the outcome of the plea process would have been different with
competent advice.” Lafler v. Cooper, 566 U.S. 156, 163 (2012). The prejudice inquiry also asks
“whether ... there is a reasonable probability that the plea offer would have been presented to the
court (i.e., that the defendant would have accepted the plea and the prosecution would not have
withdrawn it in light of intervening circumstances).” Id. at 164.

.

j • - ■

The Tennessee Court of Criminal Appeals evaluated this claim in Dunkley’s
postconviction appeal, noting that there was conflicting testimony from the* evidentiary hearing
regarding whether a plea offer had been made by the prosecution;-. Nonetheless,The.Tennessee
Court of'Criminal Appeals determined.that trial counsel had performed deficiently by informing
Dunkley of the potential offer'without also advising him of her belief that he should accept the

2HNo. 20-6221
-4/

plea. Despite this deficient performance, the Tennessee Court of Criminal Appeals concluded that
Dunkley could not show that he had been prejudiced because the prosecutor’s testimony at the
evidentiary hearing indicated that any plea would have been contingent on the approval of the
victim and his co-defendants’ agreement to plead guilty as well, and thus he had not shown a
reasonable probability that the plea agreement, even if he had accepted it, would have been
presented to the trial court. Dunkley, 2017 WL 2859008, at *6-7. Reasonable jurists could not
debate the district court’s conclusion that this determination was not contrary to, or an
unreasonable application of federal law, or an unreasonable determination of the facts in light of
the evidence presented at the evidentiary hearing.
(b) Lost or Destroyed Evidence. Dunkley next seeks a COA on his claim that trial counsel
performed ineffectively by failing to effectively argue under Tennessee law that phone data
extracted from one of a co-conspirator’s cellphones should have been excluded. See State v.
Ferguson, 2 S.W.3d 912 (Term. 1999). Dunkley argued that law enforcement’s return of the phone
to the co-conspirator’s mother after its initial analysis and data extraction prevented him from later
examining the phone to determine if it might have contained specialized software allowing his co­
conspirator to fabricate the text messages used against him at trial. He therefore faulted trial
counsel for failing to present any proof supporting the claim at a pretrial hearing, and later striking
motions to dismiss or suppress when the cellphone was made available to trial counsel prior to
trial.
The Tennessee Court of Criminal Appeals, noting that even Dunkley’s trial counsel had
admitted that the challenge to the cellphone was a “fishing expedition” based On “speculation,”
concluded that trial counsel had not performed deficiently because she had raised the issue of the
temporarily lost cellphone and had managed to obtain the cellphone for inspection prior to trial.
The Tennessee Court of Appeals also determined that Dunkley had not been prejudiced because
he had presented no evidence that any such nefarious software had been present on the cellphone,
he had acknowledged that the majority of the text messages on the phone were ones that he had
sent or received, he had not claimed the cellphone was tainted at the time he acquired it, and

r

J

F

is.
No. 20-6221
-5-

)//

another cellphone also contained numerous incriminating text messages.

Dunkley, 2017

WL 2859008, at *8-9. Reasonable jurists could not debate the district court’s conclusion that this
determination was not contrary to, or an unreasonable application of, federal law.
(c) Failure to Challenge Admissibility of Co-conspirator’s Cellphone Data. Dunkley
requests a COA on his claim that trial counsel should have challenged the search warrants for and
moved to suppress the data extracted from his co-conspirator’s cellphones. But, as noted by both
the Tennessee Court of Criminal Appeals and the district court, id. at *9, he lacked standing to
challenge those searches because he had no privacy interest in those phones, see United States v.
Hopper, 58 F. App’x 619, 624 (6th Cir. 2003) (per curiam) (citing United States v. Padilla, 508
U.S. 77, 81 (1993)). Accordingly, reasonable jurists could not debate the district court’s denial of
this claim.
(d) Failure to Challenge the Judicial Subpoenas of Dunkley’s Cellphone Data. Dunkley
also seeks a COA for his claim that trial counsel performed ineffectively by failing to challenge
the admissibility of his own cellphone records, on the basis that the affidavits supporting the
subpoenas were insufficient under Tennessee Code Annotated § 40-17-123(c). The Tennessee
Court of Criminal Appeals determined that, even if the subpoenas were technically deficient,
Dunkley was not prejudiced because the State could have simply obtained additional affidavits
that complied with the statute and that his conviction was supported by substantial additional
evidence, such as the statements, testimony, and cellphone records of his co-conspirators. In fact,
Dunkley’s own cellphone records did not provide the substance of any of the oral or written
communications, which instead were obtained from other phones, but showed only the points of
contact between his phone and that of a co-conspirator. Dunkley, 2017 WL 2859008, at TO.
Reasonable jurists could not debate the district court’s determination that this conclusion was
reasonable.
(e). Failure to Rebut Prosecution’s Claim of His Presence at Skyline Hospital. Dunkley
lastly seeks a COA on his claim that trial counsel performed ineffectively by failing to rebut the
prosecution’s claim that Dunkley’s vehicle was seen.“hovering” in the area of Skyline Hospital

\1
No. 20-6221
-6during a meeting of some of his co-conspirators, claiming that witness testimony from Joslynn
Williams-Dunkley and his cellphone records would instead show that he was a few miles north of
\

..

V

the hospital at the time. The Tennessee Court of Criminal Appeals rejected this claim, first
determining that trial counsel acted reasonably when declining to call Williams-Dunkley due to
credibility issues. The Tennessee Court of Criminal Appeals also concluded that he was not
prejudiced by counsel’s failure to emphasize the cellphone-location records because trial testimony
had established that the use of cellular towers to establish location was imprecise at best and that
his presence or absence from the area around the hospital was not material to his prosecution. Id.
at * 11. Reasonable jurists could not debate the district court’s conclusion that this ruling was not
contrary to, or an unreasonable application of federal law.
Accordingly, the application for a COA is DENIED.
ENTERED BY ORDER OF THE COURT
s ■

Deborah S. Hunt, Clerk

I

/

i

onNo. 20-6221
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRIAN DUNKLEY,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,

\\

v.
SHAWN PHILLIPS, WARDEN,
Respondent-Appellee.

FILED
_ _Jun_ 01,2021
DEBORAH S. HUNT; Clerk

ORDER

Before: ROGERS, LARSEN, and READLER, Circuit Judges.

Brian Dunkley, a pro se Tennessee prisoner, petitions the court to rehear en banc its order
denying him a certificate of appealability. The petition has been referred to this panel, on which
the original deciding judge does not sit, for an initial determination on the merits of the petition for
rehearing. Upon careful consideration, the panel concludes that the original deciding judge did
not misapprehend or overlook any point of law or fact in issuing the order and, accordingly,
declines to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

'y

2Cf
No. 20-6221
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRIAN DUNKLEY,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
SHAWN PHILLIPS, WARDEN,
Respondent-Appellee.

FILED
Jun 17, 2021
DEBORAH'S. HUNT, Clerk

ORDER

Before: ROGERS, LARSEN, and READLER, Circuit Judges.

Brian Dunkley petitions for rehearing en banc of this court’s order entered on April 22,
2021, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

